<html>
<title> - NOMINATION OF PAUL A. QUANDER, JR.</title>
<body><pre>[Senate Hearing 107-473]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 107-473
 
                   NOMINATION OF PAUL A. QUANDER, JR.
=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                 ON THE

NOMINATION OF PAUL A. QUANDER, JR. TO BE DIRECTOR, DISTRICT OF COLUMBIA 
             COURT SERVICES AND OFFENDER SUPERVISION AGENCY

                               __________

                             APRIL 11, 2002

                               __________

      Printed for the use of the Committee on Governmental Affairs

                       U. S. GOVERNMENT PRINTING OFFICE
79-890                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
              Jason M. Yanussi, Professional Staff Member
                Jennifer E. Hamilton, Research Assistant
Marianne Clifford Upton, Staff Director and Chief Counsel, Oversight of
   Government Management, Restructuring and the District of Columbia 
                              Subcommittee
              Richard A. Hertling, Minority Staff Director
                  Johanna, L. Hardy, Minority Counsel
   Mason C. Alinger, Minority Professional Staff Member, Oversight of
   Government Management, Restructuring and the District of Columbia 
                              Subcommittee
                     Darla D. Cassell, Chief Clerk






                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Durbin...............................................     1

                               WITNESSES
                        Thursday, April 11, 2002

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia...........................................     2
Paul A. Quander, Jr., to be Director, District of Columbia Court 
  Services and Offender Supervision Agency;
    Testimony....................................................     3
    Biographical and professional information....................     9
    Pre-hearing questions and responses..........................    15

                   NOMINATION OF PAUL A. QUANDER, JR.

                              ----------                              


                        THURSDAY, APRIL 11, 2002

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:12 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Richard 
Durbin presiding.
    Present: Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. The Committee will come to order. Good 
afternoon and welcome. My apologies for my schedule. Delegate 
Norton can empathize with some of the problems we face.
    Welcome to everyone. Today the Senate Committee on 
Governmental Affairs holds a hearing to consider the nomination 
of Paul Quander, Jr. to the position of Director for Court 
Services and Offender Supervision Agency for the District of 
Columbia.
    CSOSA was established by Congress as part of the 1997 D.C. 
Revitalization Act. It combined under one helm the previously 
disparate local functions of Pretrial Services, Parole, Adult 
Probation and Post-Conviction Offender Supervision, following 3 
years of operation as a trusteeship. CSOSA was certified as an 
independent Federal agency within the Executive Branch on 
August 4, 2000. CSOSA, with 950 employees, an annual budget of 
$132 million and responsibility for monitoring 21,000 pretrial 
release defendants per year--that is about 8,000 at any one 
time--and 15,338 post-conviction offenders on probation or 
parole, has been guided under an appointed interim director 
awaiting confirmation of the President's designee. So this 
marks the first opportunity for the Senate to advise and 
consent on the President's nominee to fill the CSOSA 
Directorship post.
    On October 18, 2001, Paul A. Quander, Jr. was nominated by 
President Bush to be that director for a term of 6 years. Mr. 
Quander has served as an Assistant U.S. Attorney for D.C. since 
1994. From 1989 to 1994 he was Deputy Director of the D.C. 
Department of Corrections. From 1982 to 1989 Mr. Quander served 
with the Office of Corporation Counsel in the Juvenile Section, 
the Civil Division and then in the Correctional Litigation 
Section. He is a graduate of Virginia State University and 
Howard University School of Law.
    I am certain this is going to be a special day for you, Mr. 
Quander. I understand you may have some family members who are 
with you in support, as well as colleagues and friends. Would 
you care to introduce some of them at this point in time?
    Mr. Quander. Thank you very much. At this time I would like 
to take the opportunity to introduce my mother, Roberta J. 
Quander; my wife, Charlene Quander; my oldest daughter and a 
sophomore at Hampton University, Candace Quander; and my 
youngest daughter, Katherine Quander, who will be attending 
Florida A&M this fall.
    Also I would like to acknowledge and recognize three 
lifelong friends who are present: Charles Cobb, Anthony Giles 
and Steve Young. There are also former colleagues from the 
Office of the Corporation Counsel, the Department of 
Corrections, and current colleagues with the U.S. Attorney's 
Office, and there are a number of staff members from CSOSA that 
are also present that I would like to acknowledge as well.
    Senator Durbin. Thank you very much, Mr. Quander.
    And let me at this time welcome my friend, Congresswoman 
Eleanor Holmes Norton with the District of Columbia who is here 
to offer an introduction on your behalf.

TESTIMONY OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
                 FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Mr. Chairman. May I begin 
by thanking you for your kind and very expert attention to the 
affairs of the District of Columbia. I know of no one who has 
been more helpful to this city.
    I am pleased to come this afternoon to recommend Paul A. 
Quander, Jr., to be Director of Court Services and Offender 
Supervision Agency.
    Now, Mr. Chairman, you and I helped get through the 
Revitalization Act that transferred these functions, these 
State functions for criminal defendants to the Federal 
Government, but I do not think you or I should take any 
responsibility for this name. It is, barring none, the most 
cumbersome name of an agency perhaps in the Federal annals. I 
have thought of putting a bill in to change it to something 
simple, but its mandate is indeed complicated, and it will 
take, I think, a candidate of the experience and the extensive 
law enforcement background that Mr. Quander offers to make sure 
that it continues on its excellent course.
    After receiving his degrees, undergraduate and law degrees 
with honors, both with honors, he has spent his entire career 
in law enforcement in this city in the Corporation Counsel's 
Office, in the U.S. Attorney's Office, at the Department of 
Corrections, all three in high posts. His experience is 
important because he will be working with State-level inmates 
released after having committed serious crimes or been accused 
of serious crimes.
    Mr. Chairman, you might think this a thankless task. The 
people over whom Mr. Quander will have jurisdiction are 
statistically most likely to commit or recommit crimes. But 
this office has functioned splendidly, and is responsible for a 
large part of the reason that the crime statistics in the 
District of Columbia have come down so rapidly. Mr. Quander, 
therefore, has a running head start as he takes over this 
agency. That is not always the case as one comes into a new 
post.
    And because of your own work in getting this bill through 
and because of its importance to the residents of the District 
of Columbia, I would just like to leave you with a few 
statistics on this work. CSOSA now supervises 16,000 offenders 
and 8,000 defendants. In the last 3 years the number of 
parolees rearrested has dropped 63 percent because of the work 
this agency does. We have profited mightily by transferring our 
offenders to an expert professional supervision agency. It has 
done so not because it holds tea groups, but because it uses 
serious kinds of measures, including anger management, work 
that has resulted in drug abuse and alcohol abuse being 
reduced. I mean when you reduce it by things like--not just 
sitting around and doing counseling, but by monitoring these 
inmates so that, for example, with urine tests and the like, so 
that when the period of supervision is over, they come back 
into our community no longer ready to be involved in crime. 
They have done extensive job referral and job training work. 
Among a representative sample of offenders who completed 
treatment in fiscal year 2001, positive drug results were down 
50 percent. As you know, it is drug offenses that lead to crime 
in large cities like Chicago and New York, so I cannot 
emphasize enough the importance of this position to public 
safety in the District of Columbia.
    The experience and background that Mr. Quander brings to 
the post shows he is well qualified for the job, and I am 
pleased to recommend him to you this afternoon.
    Senator Durbin. Well, Delegate Norton, your commendation 
goes a long way with this Committee, and we are glad that you 
are here today. And I also know that you have a pretty busy 
schedule, so if you can stay, you are certainly welcome, but if 
you have to leave, we certainly understand that too.
    Ms. Norton. I thank you for excusing me, Mr. Chairman.
    Senator Durbin. I thank you for joining us.
    Mr. Quander, it is customary in this Committee to swear in 
witnesses, and if you would be kind enough to stand and raise 
your right hand. Do you swear the testimony you are about to 
give is the truth, the whole truth and nothing but the truth, 
so help you, God?
    Mr. Quander. I do.
    Senator Durbin. Thank you. Let the record indicate the 
witness answered in the affirmative.
    Do you have any opening remarks that you would like to 
make?

 TESTIMONY OF PAUL A. QUANDER, JR.\1\ TO BE DIRECTOR, DISTRICT 
   OF COLUMBIA COURT SERVICES AND OFFENDER SUPERVISION AGENCY

    Mr. Quander. Very briefly. I would like to thank you, 
Senator Durbin, and the other Members of the Committee and 
staff for this opportunity. I am honored and humbled by the 
nomination and the prospect for working for an agency and 
leading an agency that has the mandate that it does.
---------------------------------------------------------------------------
    \1\ The biographical information appears in the Appendix on page 9.
     Pre-hearing Questions and Responses appear in the Appendix on page 
15.
---------------------------------------------------------------------------
    This agency touches the lives of many people, many people 
that have had contact, all of them had contact with the 
criminal justice system and may be down. But I look at it as an 
opportunity to help, number one, the public as far as public 
safety, but to help the individuals as well as they try to turn 
around their lives and to become reintegrated with the society, 
this society, the District of Columbia of which I am native. So 
I am thankful for the opportunity and I am thankful to be here 
this afternoon.
    Senator Durbin. Thank you very much. Your nomination was of 
course received in the Senate, and you completed a thorough 
biographical questionnaire, and we have certainly reviewed it, 
as others have as well, and I have reviewed the response as of 
yesterday, and note that you have an extensive and exemplary 
record of service, which certainly qualifies you.
    Now, there are three standard questions asked of all 
nominees, which I will ask first, and then get into particulars 
about your specific responsibility. Is there anything you are 
aware of in your background that might present a conflict of 
interest with the duties of the office to which you have been 
nominated?
    Mr. Quander. No.
    Senator Durbin. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Quander. No, I do not.
    Senator Durbin. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from serving the 
full term for the office to which you have been nominated?
    Mr. Quander. No.
    Senator Durbin. Let me ask you about your background then. 
After the standard questions here, let us get into things that 
are perhaps a little more relevant to the particular 
appointment.
    You have a successful career as a prosecutor and 
significant experience on the corrections side, but a big part 
of this job goes beyond what you have done to deal with 
offenders after they have served in the Department of 
Corrections. If you are confirmed for this position, what 
experience would you draw upon to enable you to assist 
offenders and reduce recidivism?
    Mr. Quander. Well, the first experience will be what I 
gained with the Department of Corrections, because the 
Department of Corrections, during my 5-year tenure as the 
Deputy Director, we not only had responsibility for the 
prisons, but we also had responsibility for the halfway houses 
and transitioning those individuals who were in the penal 
institutions into a halfway house and back into the community. 
So we spent a lot of time, and I spent a lot of time, on trying 
to provide services and a forum, so to speak, so that inmates, 
both male and female, when they transition out of the penal 
institution, will have a place that they can go where they can 
transition back into the community.
    Once they are in the community, it just doesn't stop there. 
We had experience because part of our responsibility was not 
only to house the inmates, but to a certain degree to keep them 
in the community. So I have some exposure on the back end in 
corrections. The other experience that I do have is in the U.S. 
Attorney's Office. I handled a lot of the major narcotics and 
gang cases, and you come into contact with people that have 
been in the system, that have been on probation, that have been 
incarcerated, and you get to spend time with them, and you get 
to see what works in their minds, what is effective and what is 
not. So you develop an understanding, you get a feel for what 
programs may be successful and what won't be. You also get a 
sense of what motivates people to succeed, and I think that 
will be very helpful as I move forward with CSOSA.
    Senator Durbin. So based on your personal experience, if 
you had to come up with some general observations, what would 
you point to as the reason for failure in most cases? Why do 
you think some who have emerged from this corrections 
experience end up back in jail again?
    Mr. Quander. I think the largest issue is substance abuse, 
which is closely intertwined with just economics. When an 
individual returns to the community, that person, male or 
female, has to make a living, has to have a way to survive, and 
often the lure of fast money that drugs and narcotics presents 
is sometimes overwhelming, and people are willing to take that 
risk. If there are alternatives and if people know that people 
are going to be watching, and we're going to be talking not 
only with CSOSA but with the Metropolitan Police Department, 
which is done right now and that we're going to be targeting 
and we're going to be looking very, very closely.
    So I think it's a staffing issue because you want to have 
an appropriate ratio of community service officers to the 
people that are on supervision, and it's also offering 
alternatives to try to get people to make those lifestyle 
changes that will get them off of the drugs, get them away from 
the lure of the fast money, which just means in a matter of 
time they're going back, and get them in to something whereby 
they can get up and go to work the regular 9 to 5 job, and then 
get into what we consider and society expects of them, just a 
good solid citizen.
    Senator Durbin. I do not know that you would be familiar 
with the city of Chicago, which I am honored to represent, but 
it turns out that in one congressional district in the west 
side of Chicago there is just an overwhelming percentage of 
formerly incarcerated people who come to live there because of 
the various programs and opportunities on the west side of 
Chicago. And I recently attended a meeting there, and one of 
the things that I was surprised to find was that some of those 
who had been incarcerated ran into problems right away because 
of a reason they had not anticipated. They were turned loose 
out on the street without any form of identification. And so 
the Illinois Department of Corrections now has a program to 
issue photo ID cards to those who are leaving the Department of 
Corrections, so that they can prove their identity. It will be 
probably some time before they will have a driver's license or 
some other form of identification. Do you know if Washington, 
DC has that problem or has responded to it?
    Mr. Quander. I had a recent experience with a young man who 
was just recently released from a period of incarceration from 
a California facility. And he was a cooperating witness in a 
case that I had, so he came to see me. And he indicated that he 
had the same problem. I do know what CSOSA has in place a 
number of programs and a number of meetings and things of that 
nature once a person is released, and they're required to meet 
with a supervision officer. I am not sure what is in place 
right now to address that, but I do know that one individual 
did have that issue of not having a valid piece of 
identification.
    Senator Durbin. When you are successful in this nomination, 
and I trust you will be, if you would please look into that, 
and if you think there is something we can do by legislation 
that might be helpful, let us know. Otherwise, if D.C. can take 
care of it, I am a big believer in home rule. So if you could 
take care of it, more power to you.
    Mr. Quander. Very well.
    Senator Durbin. Can we talk about halfway houses?
    Mr. Quander. Certainly.
    Senator Durbin. Because I know that they're used quite a 
bit, quite extensively, aren't they, in the District of 
Columbia?
    Mr. Quander. I believe they're used extensively, so much so 
that I believe now we're running close to being at capacity. 
And there's a significant need for additional halfway house 
space. CSOSA has done a good job of getting out there, talking 
to the community, trying to locate halfway houses, and it's a 
tough process, but it's something that needs to be done on both 
ends. I believe that a person that is being released from a 
period of incarceration needs a--he needs a safe home. He needs 
or she needs a transition setting. They need a place where it 
will be easier for them to make that adjustment, because in 
prison you're told when to get up, when to go to bed, when to 
eat. When you're out in the street, you don't have those 
issues, and sometimes it's kind of easy to run afoul of the 
rules and the regulations. If there is a place where you can 
get your bearings, be strictly indoctrinated into what is 
expected of you, then I think people have a successful period 
of transition.
    On the other end, the Pretrial Services Agency for 
individuals who are pending trial, halfway houses offer an 
alternative to incarceration. There's a constitutional right to 
be presumed innocent, and for your nonviolent offenders, 
halfway houses oftentimes will offer a viable alternative for 
even some of your violent offenders. The space is needed. I 
believe it can be well run. I believe it can perform a service 
that will benefit public safety, so I believe halfway houses 
are key.
    Senator Durbin. One of the other things that seems to be 
critical is caseload ratio, and I know Delegate Norton talked 
about some of the improvements at this agency, but some of the 
statistics we have are dramatic, where the number of prisoners 
assigned to each one of the supervising officers declined from 
180 or 200 to 64. That is a substantial decline to about one-
third of previous levels. Still, it is a little higher than 
what they have said should be the maximum, 50. Do you see that 
as part of your responsibility to reduce that caseload even 
further?
    Mr. Quander. Absolutely. I think for public safety you need 
to have a manageable caseload. If not, you just can't do the 
job that is required by the citizens of the District of 
Columbia. You're going to miss some things. And it's just too 
important. We have basically a public trust. We have asked the 
community to let these men and women come back into the 
community and we will watch them. We will provide. We will be 
your eyes and ears, and we have to have a caseload that allows 
us to do that.
    CSOSA has done, I believe, a great job in moving the 
supervising officers out of the offices downtown and into the 
community. There is a, for lack of a better term, a regional 
center not far from where I live on Good Hope Road and 
Minnesota Avenue. There's another one on South Capitol Street 
in Southeast, and I believe there's another in Taylor, so 
community service officers are right there in the community, 
and it gives them a visible presence, and the individuals who 
are under supervision know that their officers are nearby and 
available if they need them, or available to come by to do a 
spot visit and to check, which just helps lend credence to what 
we do, and that is public safety.
    Senator Durbin. One of my friends and heroes in the Chicago 
area is a Father Clement, who is an African-American priest, 
who started a number of programs on a national basis. One was 
called One Child One Church, where they were asking churches to 
try to bring in a child who might otherwise have no guidance in 
their life, and the other was One Convict One Church, where 
churches would try to reach out and mentor and assist those who 
were recently incarcerated and try to get them back in society. 
Is there such a program under way in D.C. that you are familiar 
with?
    Mr. Quander. Yes, there is a faith-based program that is 
under way, I believe. Hallem Williams was recently appointed to 
lead that effort in CSOSA, and essentially what we are trying 
to do is to mirror that program in that there is a large faith-
based community here that is willing to work with us and to 
assist, and we are trying to match up and to get individuals 
who have been recently released from prison connected with the 
church and have a church sponsor, and help that person with the 
transition, not only just initially, but permanently, to give 
the foundation.
    Senator Durbin. Great. My staff is all over this one. They 
just handed me an article from the Washington Post of January 
12 involving the faith community partnership. It specifies 
Faith Tabernacle of Prayer in Southeast Washington as one of 
the cooperating churches.
    Mr. Quander. Yes.
    Senator Durbin. So I think that is an excellent program, 
and I hope that we will find ways to work together to expand 
it.
    I do not have any further questions, and I would like to 
thank you, Mr. Quander, for your responses. They were certainly 
encouraging. I want to thank your family for joining you, as 
well as your friends today. The next step in this process will 
be the prompt consideration of your nomination in a full 
Committee markup and reporting to the full Senate for final 
action.
    Let me note that the record of this hearing will remain 
open for a period of 1 week to permit other Members of the 
Committee to submit statements or questions for you to 
consider.
    With that, nothing further on my agenda, and I thank you 
again for being here.
    Mr. Quander. Thank you.
    Senator Durbin. This hearing is adjourned.
    [Whereupon, at 3:33 p.m., the Committee hearing was 
adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 79890.001

[GRAPHIC] [TIFF OMITTED] 79890.002

[GRAPHIC] [TIFF OMITTED] 79890.003

[GRAPHIC] [TIFF OMITTED] 79890.004

[GRAPHIC] [TIFF OMITTED] 79890.005

[GRAPHIC] [TIFF OMITTED] 79890.006

[GRAPHIC] [TIFF OMITTED] 79890.007

[GRAPHIC] [TIFF OMITTED] 79890.008

[GRAPHIC] [TIFF OMITTED] 79890.009

[GRAPHIC] [TIFF OMITTED] 79890.010

[GRAPHIC] [TIFF OMITTED] 79890.011

[GRAPHIC] [TIFF OMITTED] 79890.012

[GRAPHIC] [TIFF OMITTED] 79890.013

[GRAPHIC] [TIFF OMITTED] 79890.014

[GRAPHIC] [TIFF OMITTED] 79890.015

[GRAPHIC] [TIFF OMITTED] 79890.016

[GRAPHIC] [TIFF OMITTED] 79890.017

[GRAPHIC] [TIFF OMITTED] 79890.018

[GRAPHIC] [TIFF OMITTED] 79890.019

                                   - 

</pre></body></html>
